     STRATEGY AND RESOURCES NEEDED TO
     SUSTAIN AFGHAN ELECTORAL CAPACITY




                             September 22, 2009




SIGAR Audit-09-6 Elections
           OFFICE OF SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION

September 22, 2009

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan
Department of State

Alonzo L. Fulgham
Acting Administrator
U.S. Agency for International Development


This report discusses U.S. and donor assistance in preparation for the presidential and
provincial council elections held on August 20, 2009, in Afghanistan, the first elections managed
directly by the Government of the Islamic Republic of Afghanistan. U.S. and other donors have
invested almost $500 million to support the elections in Afghanistan. The development of a
sustainable electoral capacity is critical to the success of future elections and to lessen future
dependence on international support. This report includes two recommendations for the U.S.
Ambassador to Afghanistan to assist the Government of the Islamic Republic of Afghanistan in
developing a sustainable institutional capacity of the Independent Election Commission.

A summary of our report is on page ii. This performance audit was conducted by the Office of
the Special Inspector General for Afghanistan Reconstruction under the authority of Public Law
110-181, and the Inspector General Act of 1978, as amended. When preparing the final report,
we considered written comments from the U.S. Embassy in Afghanistan. The comments are in
appendix IV of this report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction




SIGAR Audit-09-6 Elections
                                                                     SIGAR Audit-09-6 Elections                             September 22, 2009


                   SIGAR
                                                Special inspector General for Afghanistan Reconstruction


                                                                     STRATEGY AND RESOURCES NEEDED TO
               .
                                                                     SUSTAIN AFGHAN ELECTORAL CAPACITY
   Special Inspector General for Afghanistan Reconstruction


 What SIGAR Reviewed
 Building institutional electoral capacity is critical for sustaining a legitimate and fairly elected government. Afghanistan will
 hold four major elections from 2009 through 2010. On August 20, 2009, the first two of these elections—the presidential
 and provincial council elections—were held and managed, for the first time, by the Afghanistan government. In 2010, the
 Afghanistan government will hold parliament and district council elections. This report (1) identifies U.S. and donor
 assistance and coordination of support for election preparation, and (2) assesses the assistance provided to strengthen the
 capacity of the Afghan electoral institution, specifically the Independent Election Commission. We conducted this
 performance audit in Kabul, Afghanistan, and Washington, D.C., from March to August 2009 in accordance with generally
 accepted government auditing standards.

 What SIGAR Found
 The international community made available nearly $490 million in assistance to support a legitimate Afghan election
 administered by the Independent Election Commission, of which the United States support comprised over half ($263
 million), as of August 2009. Lessons learned from the 2004 and 2005 elections highlighted the need for increased
 coordination to avoid duplication of effort and enhance the flow of information. To coordinate international support for the
 electoral process for the 2009 elections, the United Nations managed the majority of the international contributions. The
 United Nations focused on fulfilling the immediate operational and logistical needs, such as supporting the development of
 regulations and procedures and hiring of temporary staff, procuring electoral supplies, and coordinating security planning.
 While the United Nations recognizes the need for capacity development, it has not established a long term capacity building
 strategy to ensure that transfer of skills occurs. Several donors we interviewed expressed disappointment with the lack of
 focus on sustainability and the need for a longer-term perspective on capacity building to lessen future international
 support. The Independent Election Commission (IEC) faces significant challenges, particularly for the 2010 parliament
 elections, because it lacks the resources to undertake future elections without continued international support. Conducting
 credible and acceptable elections not only depends on the integrity of the election process but also the willingness and
 ability of the next Afghan government to continue to build the Commission’s capabilities so that democratic principles and
 the electoral processes are sustained. On July 6, 2009, SIGAR recommended the U.S. Ambassador to Afghanistan urge the
 United Nations to take immediate action to fill a key advisor position responsible for monitoring the progress of capacity
 building, sustainability, and exit strategies. However, the position remains unfilled, and there is no detailed strategic plan
 to maximize and leverage the substantial investment made by the donors.


 What SIGAR Recommends                                                                            International and U.S. Contributions for
 SIGAR recommends the U.S. Ambassador to Afghanistan, in                                          Afghanistan Elections, (USD in millions)
 consultation with the U.S. Agency for International Development, assist
 the Afghan government to jointly develop, with IEC and other                                     Type of International Total      U.S.
 stakeholders, a (1) strategic plan to address national electoral capacity,
                                                                                                  Assistance            Assistance Assistance
 matched with an Afghan budget and human resource structure capable
 of supporting sustainable electoral processes; and (2) request United                            United Nations                  $331.2   $120.0
 Nations hire a capacity development advisor or appoint an executive                              Bilateral                       $157.4   $143.1
 agent to coordinate an overall strategy with IEC, United Nations, and
                                                                                                  Total                           $488.6   $263.1
 major donors` and stakeholders, for monitoring the status and progress
                                                                                                 Source: UNDP/ELECT and SIGAR analysis
 of all capacity building efforts in Afghanistan. The U.S. Embassy Kabul
 and U.S. Agency for International Development concurred with SIGAR’s
 recommendations and stated they will work through diplomatic     i and
 assistance channels to implement them.


SIGAR Audit-09-6 Elections
TABLE OF CONTENTS


BACKGROUND                                                                                    2

SUBSTANTIAL INTERNATIONAL INVESTMENT SUPPORTS AFGHAN ELECTIONS                                3

NO LONG-TERM STRATEGY FOR SUSTAINING AFGHAN ELECTORAL CAPACITY AND RESOURCES                  8

CONCLUSIONS                                                                                  10

RECOMMENDATIONS                                                                              11

APPENDIX I: Scope and Methodology                                                            12

APPENDIX II: 2009 Afghanistan Elections Timeline                                             13

APPENDIX III: UNDP/ELECT 2009 Budget                                                         14

APPENDIX IV: Comments from U.S. Embassy Kabul                                                15


TABLES
Table 1: United Nations and Bilateral Assistance for Elections                               3

Table 2: U.S. Assistance to Support Elections                                                4

GRAPHIC
Graphic 1: Depiction of Management and Coordination Structure for Afghan Elections           7



ABBREVIATIONS

IEC                     Independent Election Commission
SIGAR                   Special Inspector General for Afghanistan Reconstruction
UNAMA                   United Nations Assistance Mission in Afghanistan
UNDP/ELECT              United Nations Development Programme/Enhancing Legal and Electoral
                        Capacity for Tomorrow
USAID                   United States Agency for International Development




SIGAR Audit-09-6 Elections
              Strategy and Resources Needed to Sustain Afghan Electoral Capacity

This report (1) identifies the assistance and coordination provided by the United States and international
donors in support of Afghanistan’s preparation for the August 2009 presidential and provincial council
elections; and (2) assesses the assistance provided to strengthen the capacity of the Afghan electoral
institution for future elections, specifically the Independent Election Commission.

To accomplish these objectives we interviewed IEC managers, United Nations Development Programme
(UNDP) officials managing the Enhancing Legal and Electoral Capacity for Tomorrow (ELECT) project,
U.S. officials and representatives from donor countries and non-governmental organizations that
supported the election process. We also attended coordination meetings and/or met with UNDP/ELECT,
IEC, donor country representatives, and other stakeholders; and reviewed documents and reports
analyzing and/or providing updates on aspects of the election process.

This report focused on the preparation for the August 2009 presidential and provincial council elections.
We did not assess the security situation; providing security for the election was the primary
responsibility of the Afghan National Security Forces. The results and conduct of this election, including
lessons learned and women’s participation will be discussed in separate reports. We conducted work in
Kabul, Afghanistan, and Washington, D.C., from March to August 2009 in accordance with generally
accepted government auditing standards. A more detailed discussion of our scope and methodology is
in appendix I.

BACKGROUND

Afghanistan will hold four major elections between 2009 and 2010: presidential and provincial council
elections held on August 20, 2009, and parliament and district council elections in 2010. Unlike the
elections in 2004 and 2005, which were internationally-led and managed, the August elections were the
first managed by the IEC, an independent Afghan institution. The IEC was the sole authority in charge of
preparing and conducting the national elections in Afghanistan. For many IEC staff, this was their first
substantive experience conducting an election.

The United Nations Security Council Resolution 1806 directed the United Nations Assistance Mission in
Afghanistan (UNAMA) and the Special Representative of the Secretary-General to lead international
civilian efforts to support the elections, at the request of the Afghan authorities, by providing technical
assistance and donor coordination, and by channeling existing and additional funds earmarked to
support the process. 1 Within this framework, UNAMA established UNDP/ELECT to provide technical
assistance and capacity building to the IEC for all electoral activities. See appendix II for the 2009
elections timeline. The UNDP/ELECT, headed by a Chief Electoral Advisor, includes an operations unit
providing advice and technical support to the IEC. As of June 2009, UNDP/ELECT employed 44
international advisors assigned to IEC headquarters and 71 advisors at IEC’s regional and some of its
provincial offices.




1
UNAMA’s mandate cited in Resolution 1806 (2008) was extended in resolution 1868 (2009) until March 23, 2010.

SIGAR Audit-09-6 Elections                                                                           Page 2
SUBSTANTIAL INTERNATIONAL INVESTMENT SUPPORTS AFGHAN ELECTIONS

The international community invested $488.6 million to primarily support the 2009 elections in
Afghanistan. Financial support for the presidential and provincial council elections was made primarily
through (1) contributions by donors to the United Nations’s UNDP/ELECT project, and (2) bilateral
contributions by donors for specific activities related to the electoral process, such as civic education.
In addition to the $488.6 million provided by the international community, the Afghanistan government
budget included $1.5 million to fund the salaries of IEC core staff and temporary staff for conducting the
election. As shown in Table 1, $331.2 million was pledged to the UNDP/ELECT project and donor
countries provided an additional $157.4 million in bilateral aid. In comparison, the cost estimate of the
prior presidential and provincial council elections in 2004 and 2005 was about $416 million ($339.6
million from the United Nations and $76 million from U.S. bilateral programs).

The $331 million budget for the UNDP/ELECT project          Table 1: United Nations and Bilateral
covered costs for voter registration and election
                                                            Assistance for Elections (USD in millions)
administration, primarily for the 2009 presidential and     UNDP/ELECT Project:
provincial council elections. While the UNDP/ELECT
                                                             Voter Registration               $102.2
project spans from October 2006 to December 2010
                                                             Election Administration          $229.0
and was intended to cover the 2010 elections,
UNDP/ELECT has not prepared a separate budget for           Total UN Contribution             $331.2
the 2010 parliament and district elections. Appendix        Bilateral Assistance:
III shows a breakdown of the budget for the                  United States                    $143.1
UNDP/ELECT project by broad categories. The                  Canada                               $9.2
majority of international support for Afghanistan’s          Denmark                              $1.7
elections consisted of donor contributions to a “basket      Germany                              $0.4
fund” managed by UNDP/ELECT. Twenty-four donors              the Netherlands                      $2.5
contributed to the UNDP/Elect project, including
                                                             Switzerland                          $0.5
Australia, Canada, Denmark, France, Germany, Italy,
                                                            Total Bilateral Assistance        $157.4
Japan, the Netherlands, Norway, Spain, Sweden,
Switzerland, United Kingdom, and the United States. 2       Total Assistance                  $488.6
                                                             Source: UNDP/ELECT and SIGAR analysis.




List of donor countries excludes 10 other countries and the United Nations Development Programme and United
2

Nations Democracy Fund.

SIGAR Audit-09-6 Elections                                                                            Page 3
United States Was the Largest Donor

The United States contributed $263.1 million, or approximately 54              Table 2: US Assistance to Support
percent of the total amount ($488.6 million) provided by the                   Elections (USD in millions)
international community. As shown in Table 2, the United States                Contribution to UNDP:
contribution was made to the UNDP/ELECT and bilaterally through                 Voter Registration                  $65.0
the United States Agency for International Development (USAID).                 Election Administration             $55.0
In addition to UNDP/ELECT funding, several donor countries
                                                                               UN Contribution                    $120.0
provided direct funding for specific election activities for the
                                                                               USAID:
elections. The bilateral funding was intended to supplement
                                                                                Foundation                          $67.4
UNDP/ELECT capacity and expertise, particularly in the area of civic
education, public outreach, and media development. Some                         Consortium                          $58.5
donors stated that the amount allocated by UNDP/ELECT for civic                 Global Security                      $5.7
education was insufficient. Canada, Denmark, Germany, the                       Other projects                      $11.5
Netherlands 3, and Switzerland provided a total of $14.3 million 4             Funded by USAID                    $143.1
primarily for this purpose.                                                    Total US Assistance                $263.1
                                                                               Source: UNDP/ELECT and SIGAR analysis

Like other donor countries, the United States provided bilateral funding primarily for civic education
activities. Of the $143.1 million provided through USAID, $67.4 million funded the International
Foundation for Electoral Systems, $58.5 million was provided to the Consortium for Elections and
Political Process Strengthening, $11.5 million was provided for observation activities through non-
governmental institutions and for air transportation, and $5.7 million was used to upgrade security at
IEC headquarters.

       •   The $67.4 million USAID contract for a project called, “Support to the Electoral Process in
           Afghanistan” through the International Foundation for Electoral Systems is to be implemented
           over a three-year period from 2008-2011. The assistance under this project includes training
           and capacity building at the IEC. It also includes technical advisors to IEC departments for
           periods ranging from 44 to 110 days.

       •   The $58.5 million contract with the Consortium for Elections and Political Process Strengthening,
           for the period 2008 to 2011, is intended to strengthen the ability of political stakeholders to
           articulate, organize, and compete in the elections. The Consortium partners – International
           Foundation for Electoral Systems, National Democratic Institute, and International Republican
           Institute – work collaboratively to implement the Consortium’s objectives. The International
           Republican Institute focused on training in platform development, media outreach, and other
           skills to increase candidates’ confidence in the election results. The National Democratic
           Institute focused on promoting electoral participation by political parties, candidates, and non-
           governmental organizations; and tailored activities to address organizational capacity, strategic
           planning, and outreach to constituents. The International Foundation for Electoral Systems
           aimed at increasing citizen participation through such activities as voter outreach, press corps
           training, and other activities, as well as special attention to women, youth, and the disabled.

3
    The Netherlands plans to provide $2.5 million but this amount has not yet been obligated as of August 2009.
4
    Approximate amount in U.S. dollars based on July 2009 exchange rate.


SIGAR Audit-09-6 Elections                                                                                      Page 4
UNDP/ELECT Managed International Assistance

UNDP/ELECT developed a four-fold approach to support the IEC and the election process: (1) support
the IEC Secretariat by having international advisors work alongside IEC department directors to
gradually transfer capacity through coaching, training, and mentoring; (2) coordinate international
assistance through the United Nations to avoid conflicts, program overlaps, and gaps in international
support; (3) create two key cross-cutting advisory roles – Capacity Development Advisor and Gender
Advisor – to ensure capacity development remains at the forefront of the UNDP/ELECT project and that
gender equity and access issues are mainstreamed within the IEC ; and (4) continue to advocate for
relevant legislative changes consistent with the Afghanistan Compact and the Afghanistan National
Development Strategy. A focus of the UNDP/ELECT project was to support the IEC in fully developing a
capacity to deliver credible, sustainable electoral processes. According to UNDP/ELECT, reliance on the
international community for election support is costly and unsustainable.

For the 2009 elections, UNDP/ELECT funded voter registration and election administration.
UNDP/ELECT focused on fulfilling the immediate operational needs to conduct the August election,
limiting their ability to devote substantial time and resources to institutional capacity-building activities.
UNDP/ELECT activities included assisting the IEC in reviewing or formulating regulations and procedures
for elections management; procuring and installing infrastructure, equipment, and other logistical
supplies; recruiting, training, and managing temporary electoral staff; and coordinating security
planning. Of the $331 million budget for the UNDP/ELECT project, $229 million primarily supported the
IEC, the Electoral Complaints Commission and Media Commission for the 2009 elections; technical
support; and the costs of a possible run-off in 2009; as well as broader stakeholder support for 2009 and
2010 elections. 5 Prior to the elections, $102 million supported voter registration, specifically the
registration update exercise conducted in four stages countrywide. 6

UNDP/ELECT funded observers to report on the registration exercise through the Free and Fair Election
Foundation of Afghanistan. 7 The Foundation observed all four phases of the voter registration process
and reported that there were some cases of under-age registration, multiple registrations by individuals,
and registration of absentees, particularly women registered by male relatives, and other violations.
Similar violations were reported in all of the phases, potentially undermining the fairness and
transparency of the election process. Of particular concern, the Foundation noted a lack of IEC
monitoring over field staff.




5
 According to UNDP/ELECT, the specific budget and activities for the 2010 elections will be submitted to donors
following the 2009 election.
6
 According to the Afghanistan Compact, a permanent civil and voter registry with a single national identity
document was to be established by the end of 2009. However, the Afghan government decided in May 2008 to
delink the two processes because of limited capacity within the Ministry of Interior, security concerns, and
implementation complexity.
7
 The Free and Fair Election Foundation of Afghanistan states that it is an independent and impartial umbrella
organization which has been established by a number of civil society organizations to monitor elections to ensure
that they are free and fair; promote democracy in the country; promote public participation in electoral affairs;
and help consolidate public trust and faith in democracy and elections.


SIGAR Audit-09-6 Elections                                                                                 Page 5
While it was possible for people to hold multiple registration cards, according to UNDP/ELECT, indelible
ink was used on polling day to deter voters from voting more than once. According to the International
Crisis Group, an estimated 17 million voter cards were in circulation, and in some provinces, successive
registration exercises resulted in more registration cards distributed than the estimated population. For
planning purposes, IEC assumed the eligible voting population was 15 million. However, lacking a
census or basic population data, there was no reliable way to reconcile discrepancies and increased the
potential for fraud. In commenting on a draft of this report, the U.S. Embassy Kabul stated that, while
indelible ink may deter voters from voting more than once, the most effective measure against fraud
would be a reliable voter registration list linked to individual polling stations to eliminate the possibility
of duplicate voter cards. In addition, the U.S. Embassy Kabul stated that failure to build an accurate
voters list contributed to challenges experienced during voter registration and facilitated fraud and
irregularities during the 2009 election.

The UNDP/ELECT budgeted approximately $11 million, as of January 2009, for the Electoral Complaints
Commission, an independent Afghan body established to adjudicate challenges and complaints related
to the electoral process. 8 The Commissioners consist of three international appointees of the United
Nations, based on the 2005 Electoral Law, as well one Afghan commissioner appointed by the
Afghanistan Independent Human Rights Commission and another Afghan commissioner appointed by
the Supreme Court. The electoral appeals body was intended to exist only over electoral periods and
complete its work within 30 days of the certification of results. According to a commissioner, the
Electoral Complaints Commission was to start in January 2009 but due to delays in appointing them, the
Commission did not start until May 2009 and as a result, the recruiting and training of over 270 Afghan
officers was rushed. Since the Commission is not a permanent institution, much of the Afghan
knowledge and expertise gained for that election could be lost, similar to what happened after the 2005
election. Nevertheless, the Commission formed a management structure capable of adjudicating a large
number of complaints, as evidenced in its public reporting. In commenting on a draft of this report, the
U.S. Embassy Kabul stated that UNDP/ELECT procurement practices contributed to the slow
establishment of the Electoral Complaints Commission in Kabul and the provinces and that the
Commission should be separated from UNDP/ELECT in the future.


UNDP/ELECT Groups Established to Coordinate International Support

UNDP/ELECT established coordination groups to review project progress and regularly engage with the
IEC on a full range of issues. According to UNDP/ELECT, lessons learned from the 2004 and 2005
elections highlighted the need for increased coordination among the various United Nations entities and
donor partners to avoid duplication of effort and enhance the flow of information. The project
management and coordination arrangement is depicted in graphic 1 below. Additional groups were
established to coordinate specific issues, such as the Joint Electoral Security Planning Group, for
security-related issues.




8
    Electoral Complaints Commission was established under Article 52 of the Electoral Law of Afghanistan.

SIGAR Audit-09-6 Elections                                                                                  Page 6
Graphic 1: Depiction of Management and Coordination Structure for Afghan Elections




Source: UNDP/ELECT.



A description of the groups comprising the coordination meetings follows:

•   The UNDP/ELECT Project Board met quarterly to approve its budget and budget revisions, work
    plans, and progress reports. The Board had overall management control of the project and was
    chaired jointly by the UNDP Senior Country Director, the IEC, and Assistant Country Director of
    Democratic Governance Unit. Financial donors to UNDP/ELECT attended and made decisions by
    consensus; however, in the event of a split, UNDP made the final decision.

•   The Donor Group was comprised of political and developmental representatives from donor
    countries and met at least monthly. The Group was co-chaired by a donor nominated by the group
    on a rotating basis. Meetings were facilitated by UNDP and all interested donors could attend
    regardless of their financial contribution to the project. The Group was a forum by which donors
    exchanged information and provided advice and recommendations to UNDP/ELECT management.

•   The project steering committee meetings were generally held monthly at the IEC Headquarters. It
    was co-chaired by IEC and UNDP/ELECT and included major donors such as the United States,
    Canada, United Kingdom, Japan and the European Union. The primary focus was on project
    implementation issues.




SIGAR Audit-09-6 Elections                                                                      Page 7
•   The Election Stakeholders Meeting, held weekly, was co-chaired by the IEC and UNAMA. It served
    as a forum for updates and decisions taken by IEC to key stakeholders in pre-election planning and
    implementation.

Generally, the coordination meetings appeared to communicate progress and share information,
although some communication issues affected the quality of technical and managerial assistance
provided. For example, in some instances, both UNDP/ELECT and the International Foundation for
Electoral Systems provided support to the same department in the IEC. While technical assistance and
managerial advice was provided by both UNDP/ELECT and USAID-funded advisors through the
International Foundation for Electoral Systems, specific capabilities and expertise varied among the
advisors; and sometimes, UNDP/ELECT assigned or reassigned advisors without first communicating
with the IEC department head, according to IEC managers we interviewed. According to these IEC
managers, the international advisors that were assigned did not always match the skills needed. In
commenting on a draft of this report, the U.S. Embassy Kabul added that the advisers to IEC were
frequently called on at the last minute to compensate for deficiencies of UNDP/ELECT.



NO LONG-TERM STRATEGY FOR SUSTAINING AFGHAN ELECTORAL CAPACITY AND RESOURCES

UNDP/ELECT recognizes the need for capacity development; however, it has not established a long-term
capacity-building strategy to ensure Afghan electoral capacity building and transfer of skills. According
to UNDP/ELECT’s project document, staff retention, staff recruitment, training and operational tasks will
impact on IEC’s limited current capacity. The document further states that international advisors will
partially cover for this inexperience however a strong focus on capacity development and skills transfer
is expected of the UNDP/ELECT programme. Several donors we interviewed expressed disappointment
about the lack of focus on sustainability and long-term capacity building of the IEC. One donor
representative stated that there should have been dedicated resources of national and international
staff to ensure knowledge transfer, and that UNDP/ELECT and IEC should have jointly developed a
detailed plan, establishing mutual expectations and goals to identify what could realistically be
accomplished during the election timeframe. Otherwise, according to another donor representative,
donors will need to continue to fund the election process time and time again, particularly if broader
capacity development concerns are not addressed.

In 2008, UNDP/ELECT and IEC management agreed on the need for a Capacity Development Advisor to
provide direct management advice and mentoring to the IEC and ensure capacity development
remained at the forefront of the UNDP/ELECT project. The advisor would be expected to continually
monitor the capacity building and sustainability impact of the program; provide direct management
advice and mentoring to the IEC; work with the team of international advisors to support and monitor
skills transfer; and report directly to UNDP/ELECT management on the progress of capacity building,
sustainability and exit strategies. The Capacity Development Advisor was supposed to be partnered
with an Afghan national officer in 2009 with a view to the national officer assuming full responsibility for
this role in 2010.

UNDP/ELECT planned to hire a Capacity Development Advisor but has been unable to find a suitable
candidate for the position. In July 2009, SIGAR recommended UNDP/ELECT take immediate action to
hire a Capacity Development Advisor with election managerial experience to leverage the substantial
investment not only for this electoral cycle but 2010 and beyond. As of August 26, 2009, this position

SIGAR Audit-09-6 Elections                                                                           Page 8
remains vacant. According to the U.S. Interagency Elections Team, capacity building efforts were
suspended until after the August 20 election due to the immediate operational needs of conducting the
election.

The Chief Electoral Advisor, UNDP/ELECT, stated in May 2009, that the lack of a capacity development
advisor did not mean that capacity development was not taking place. We acknowledged that
international advisors worked alongside their IEC counterparts; however, there was no strategic plan
that established mutual expectations in capacity building and measurable benchmarks on transferring
skills and knowledge. Such a plan would have helped maximize and leverage the substantial investment
made by the international community in the short time that the technical experts and advisors were
embedded at the IEC.


Afghanistan Lacks Resources to Conduct Future Elections

While IEC’s 2009 budget was approximately $1.5 million, the IEC Chief Electoral Advisor expressed
concern the Afghanistan government will have little interest or capability to fund IEC at sustainable
levels between election cycles. 9 According to a benchmark in the Afghanistan Compact, the IEC is
expected to undertake elections in an “increasingly fiscally sustainable manner.” 10 However, the IEC is
financially dependent upon the Afghanistan government. Continuing to fund the IEC is important
between election cycles to recruit and train Afghan staff, build institutional infrastructure, and have
time to implement any changes in electoral law. Following the election, the budget will likely be
reduced, according to the IEC Chief Electoral Advisor. Moreover, IEC risks losing many trained staff due
to a relatively low civil service salary structure.

The head of Information Technology at IEC was concerned about the ability to train Afghan personnel
once the international advisors leave, and in particular, the capacity to operate and maintain the
biometric voter registration system used during the registration update exercise. The system uses
biometric software (fingerprint and facial recognition) and is presently operated and maintained under a
one-year contract. There was no plan to provide extensive hands-on or comprehensive training for local
nationals or financial support to continue operating and maintaining the contract, according to IEC.

The salaries, established by the Independent Administrative Reform and Civil Service Commission, are
generally too low to keep experienced staff. In IEC’s Communication and Information Technology
Department, for example, salaries have not increased in the last three years although the market
demand for individuals with information technology expertise is rising. According to an assessment of
the IEC by the International Foundation for Electoral Systems, it is likely that individuals with
information technology expertise will find higher-paying jobs.


9
 The prior fiscal year IEC budget was 35 million Afghanis (roughly $700,000).
10
  The Afghanistan Compact is a government document that sets out detailed outcomes, benchmarks, and timelines
for delivery, based on goals set by the Afghanistan National Development Strategy. Annex I of the Compact, titled
Benchmarks and Timelines, includes a section titled Elections, which states “The Afghanistan Independent Electoral
Commission will have the high integrity, capacity, and resources to undertake elections in an increasingly fiscally
sustainable manner by end-2008, with the Government of Afghanistan contributing to the extent possible to the
cost of future elections from its own resources.”


SIGAR Audit-09-6 Elections                                                                                 Page 9
To ensure the IEC’s ability to conduct elections in a neutral manner, greater autonomy from the
executive branch of government is necessary. The weakest aspect of IEC independence is the budgetary
procedure and financial management of the IEC, which is almost entirely overseen by the Ministry of
Finance. 11 To enhance its independence, the IEC Chief Electoral Advisor suggested the IEC have its own
funding mechanism, separate from the Ministry of Finance and recommended establishing the IEC as a
standard budget line item. This action would support IEC’s independence, reduce potential for fraud
and corruption, increase professionalism by retaining trained staff, and avoid the crisis preceding each
election and dependence on international support, according to the Chief Electoral Advisor.

The cost of support for future Afghan elections will remain significantly high, according to an April 2008
assessment by the United Kingdom’s Department for International Development. 12 The aim in the 2010
polls, according to a June 2009 International Crisis Group report on Afghanistan’s election challenges,
should be substantive technical improvements and, more broadly, sustainable and widely accepted
Afghan electoral institutions. The report states that strategic planning is urgently needed, and in the
area of operational planning and budget, facilities and equipment built up for 2009 should be retained
and decisions made to ensure Afghan budget lines and donor commitments are in place for the bridge
period and the 2010 polls. Moreover, the elections should be followed by a wide ranging analysis of the
process to ensure the creation of a permanent infrastructure and electoral framework. 13


CONCLUSIONS

Capacity development intended to build and create a stable and effective IEC is critical for sustaining a
legitimate and fairly elected government. Developing sustainable institutional capacity at the IEC will
require the participation and coordination of the United Nations, international donors, and the
Government of the Islamic Republic of Afghanistan. The IEC faces significant challenges as it strives to
become a self-sustaining institution free from dependence on international support. Once institutional
capabilities are established, the IEC needs to retain qualified staff from one election cycle to the next.
Such capabilities will also be needed at the Electoral Complaints Commission, should it be established as
a permanent electoral institution. Conducting credible and acceptable elections not only depends on
the integrity of the election process but also the willingness and ability of the next Afghan government
to continue to build electoral capabilities so that democratic principles and the electoral process are
sustained. We believe a greater focus on capacity building will better position the IEC to fully assume
technical duties and lessen dependence on international support in future elections. To prepare for the
2010 elections, it is particularly important to retain expertise and take action to leverage the
international investment in the elections.




11
  Institutional Assessment of the Independent Electoral Commission, Rafael Lopez-Pintor, International Foundation for Electoral
Systems, Senior Electoral Cycle Advisor, September 30, 2008, pg. 20.

12
 Assessment Report, Programme Options for DFID Support to Elections in Afghanistan 2008-2011, Department for International
Development, U.K. Government, April 23, 2008.

13
     Afghanistan’s Election Challenges, International Crisis Group, June 24, 2009, pg. 27.

SIGAR Audit-09-6 Elections                                                                                           Page 10
RECOMMENDATIONS

To help build sustainable capacity of Afghanistan’s electoral institutions, we recommend that the U.S.
Ambassador to Afghanistan, in consultation with USAID:

    •   Assist the Government of the Islamic Republic of Afghanistan jointly develop, with IEC, United
        Nations, and other stakeholders, a detailed strategic plan for capacity development. This plan
        should include mutual expectations and benchmarks for developing sustainable institutional
        electoral capacity; a commensurate Afghan budget and human resource structure capable of
        sustaining the electoral processes; and training and professional development for the IEC and
        the Electoral Complaints Commission, if integrated as a permanent presence into the election
        process.

To ensure that capacity building and transfer of skills occur between technical advisors and IEC staff, we
recommend that the U.S. Ambassador to Afghanistan:

    •   Urge the United Nations to hire a Capacity Development Advisor, or appoint an executive agent
        to coordinate an overall strategy for building and sustaining electoral capacity. The advisor or
        executive agent should, in coordination with IEC, United Nations, and other stakeholders,
        monitor all capacity building efforts, including evaluating performance and skills transfer,
        identifying skill gaps and professional development needs, and addressing sustainability and exit
        strategies.

COMMENTS

The U.S. Interagency Elections Team and USAID Mission, representing the U.S. Embassy Kabul, provided
joint written comments on a draft of this report, which is included in appendix IV. In their response,
they fully endorsed our recommendations and stated that they will work through both diplomatic and
assistance channels to accomplish them. They also provided additional comments which we have
incorporated in the report, as appropriate.

In their additional comments, the U.S. Embassy Kabul underscored the weak management of
UNDP/ELECT as a major factor behind some of the weaknesses identified in this report. They stated that
UNDP/ELECT needs more transparency and needs to retain more experienced experts and advisors with
technical skills. Further, the U.S. Embassy noted other factors for consideration to improve the
sustainability of the electoral process beyond the institutional development of the IEC, which included
reforming the legal framework, electoral system, and constitution. This report does not address such
reforms, because the scope was limited to institutional capacity. However, we agree that these matters
are significant to the overall issue of establishing an electoral system that can produce credible and
acceptable results.




SIGAR Audit-09-6 Elections                                                                        Page 11
APPENDIX I: SCOPE AND METHODOLOGY


To identify the amount of elections assistance and coordination, we met with UNDP officials to discuss
donor funding and coordination. We reviewed documents showing the amount pledged by each donor
country and the amount received, and we verified funding information from donor countries, including
United States, Germany, Canada, the Netherlands, Switzerland, and Denmark, to include bilateral
assistance targeting specific programs, such as civic education. We interviewed officials at the United
Nations Assistance Mission in Afghanistan and UNDP/ELECT and observed information sharing and
coordination at regular coordination meetings with the donors and stakeholders.

To assess the assistance provided to strengthen the capacity of the Afghan electoral institution, the IEC,
to sustain its electoral capacity for future elections, we met with IEC department heads, non-
governmental institutions such as the International Republican Institute, National Democratic Institute,
and International Foundation for Electoral Systems; as well as The Asia Foundation and the United
Kingdom’s Department for International Development. We interviewed ten of 24 donor countries to
obtain their views on the election process, in general, and specifically, on issues such as capacity
building within the IEC. In addition, we reviewed various documents, including assessments and
progress reports by donors, stakeholders, research institutions, and the IEC. 14 We met with the
Interagency Election Team in Washington, D.C. and Kabul, Afghanistan to discuss U.S. assistance and
coordination.

We conducted work in Kabul, Afghanistan, and Washington, D.C. from March to August 2009. We
conducted this performance audit in accordance with generally accepted government auditing
standards. These standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives. The audit was conducted by the Office of the Special Inspector General for
Afghanistan Reconstruction under the authority of Public Law 110-181, and the Inspector General Act of
1978, as amended.




 The ten countries are (1) Canada, (2) Denmark, (3) Germany, (4) Italy, (5) the Netherlands, (6) Norway, (7)
14

Sweden, (8) Switzerland, (9) United Kingdom, and (10) United States.

SIGAR Audit-09-6 Elections                                                                                Page 12
APPENDIX II: 2009 AFGHANISTAN ELECTIONS TIMELINE


The table below shows the estimated timeframes for the 2009 Presidential and Provincial Council
elections in Afghanistan.

  Table 1: Timeline for 2009 Afghanistan Presidential and Provincial Council Elections
            April 25 to May 8 - Nomination of candidates
   Presidential candidates nominated themselves at IEC headquarters; Provincial Council
   candidates nominate at IEC provincial offices.
            May 16 to 21 - Display of preliminary candidate list
   Display preliminary list of candidates at all IEC offices.
            May 16 to June 8 - Electoral Complaints Commission hearings and decisions
   Registered voters challenge eligibility of candidates with the Electoral Complaints
   Commission.
            June 12 - Publication of final list of candidates
   Following Electoral Complaints Commission decisions, IEC displays the final list of
   candidates.
            June 16 to August 18 - Political campaign period
   Candidates mount campaigns. Campaigning concludes 48 hours prior to the
   commencement of polling.
            August 20 - Polling day
   Voters go to the polls. Domestic and international observer groups observe polling
   and counting. UNAMA and Afghanistan Independent Human Rights Commission jointly
   conduct political rights’ monitoring.
            September 17 – Final results and certification
   After polling closes, ballots are counted; IEC announces preliminary results. After
   adjudication of any complaints, IEC announces final results.
            October 1 - Approximate date of presidential run-off
   If no presidential candidate receives 50% +1 of votes cast, a presidential run-off is held
   between the two candidates who receive the highest number of votes.

   Source: IEC.




SIGAR Audit-09-6 Elections                                                                      Page 13
APPENDIX III: UNDP/ELECT 2009 BUDGET


 This appendix contains information on the 2009 UNDP/ELECT budget for the
 elections, which was the basis for donor contributions. The table below shows the
 broad categories of the UNDP/ELECT budget.

 Table 1: UNDP/ELECT 2009 budget
 Presidential and provincial council elections (2009)
 Temporary staffing (including civic educators)                            $23,523,573
 Election materials                                                        $25,664,064
 Transport and Infrastructure                                              $22,869,605
 Communications IT                                                          $2,905,218
 Gender                                                                       $569,899
 Public outreach                                                           $20,404,950
 Training and capacity development                                            $596,007
 External relations                                                         $1,122,463
 Media commission                                                             $721,210
 International technical assistance                                        $29,371,714
                                                   Sub Total              $127,812.543
 General Management Support @ 7%                                             9,620,299
                Election operations and technical assistance              $137,432,842
 Presidential second round (2009)
 Temporary staffing                                                        $10,332,960
 Election materials                                                         $4,893,788
 Transport                                                                  $8,120,211
                                                   Sub Total               $23,346,959
 General Management Support @ 7%                                            $1,757,298
                                  Presidential second round                $25,104,256
 Electoral Complaints Commission (2009)
 Staffing                                                                   $2,838,958
 Infrastructure                                                             $1,916,037
 Transport                                                                  $2,299,372
 International advisors and support                                         $2,494,756
 Project management                                                           $719,293
                                                   Sub Total               $10,268,416
 General Management Support @ 7%                                              $772,891
                           Electoral Complaints Commission                 $11,041,307
 Outputs 7 and 8 (2009-10)
 Civic empowerment                                                         $14,000,000
 Media training                                                             $4,500,000
 Media monitoring                                                           $2,500,000
 Targeting programming                                                      $5,000,000
 Police Training                                                            $6,000,000
 Candidate/party agent training                                             $4,000,000
 Domestic observation
 $4,000,000
 Security Costs                                                             $3,050,000
 OSS Costs                                                                  $1,291,500
                                                   Sub Total               $41,341,500
 General Management Support @ 7%                                            $3,337,532
                                  Outputs 7 and 8 (2009-10)                $47,679,032
 Project management (2009)
 International Staff                                                        $4,595,335
 National Staff                                                               $694,266
 Infrastructure                                                             $1,861,880
                                                   Sub Total                $7,151,480
 General Management Support @ 7%                                              $538,283
                                       Project management                   $7,689,764
 ELECT TOTAL COSTS (includes presidential run-off)                        $228,947,201
Source: UNDP/ELECT.



SIGAR-Audit-09-6 Elections                                                               Page 14
APPENDIX IV: COMMENTS FROM U.S. EMBASSY KABUL




SIGAR-Audit-09-6 Elections                      Page 15
APPENDIX IV: COMMENTS FROM U.S. EMBASSY KABUL (p.2)




(This report was conducted under the audit project code SIGAR-006A).

SIGAR-Audit-09-6 Elections                                             Page 16
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
